PAUL, WEISS, RIFKIND, WHARTON & GARRISON LLP
1 285 AVENUE OF THE AMERICAS
TELEPHONE

N EW YORK, N EW YORK 10019-6064

|2 I 2) 373-3000

UNIT 5201. FORTUNE FINANCIAL CENTER
5 DONGSANHUAN ZHONGLU
CHAOYANG DISTRICT. BEIJING 100020. CHIN.
TELEPHONE (86-101 5828-6300

HONG KONG CLUB BUILDING. 1 2TH FLOOR
3A CHATER ROAD. CENTRAL
HONG KONG
TELEPHONE <852. 2846-0300

WRITER'S DIRECT DIAL NUMBER

(212) 373-3254

ALDER CASTLE
lO NOBLE STREET
LONDON EC2V 7JU. UNITED KINGDOM
TELEPHONE i44 20. 7367 1600

WRITER'S DIRECT FACSIMILE

(212) 492-0254
FUKOKU SEIME1 BUILDING
2-2 UCHISAIWA1CHO 2-CHOME
CHIYODA-KU. TOKYO 100-001 I, JAPAN
TELEPHONE -81-3) 3597-8101

WRITER’S DIRECT E-MAIL ADDRESS

jhurwitz@paulweiss.com

October 23, 2020

TORONTO-DOM IN ION CENTRE
77 KING STREET WEST. SUITE 3 100
PO BOX 226
TORONTO. ONTARIO M5K 1J3
TELEPHONE (416) 504-0520

200 1 l< STREET NW
WASHINGTON, DC 20006-1047
TELEPHONE (202) 223-7300

BY MESSENGER AND ELECTRONIC FILING

500 DELAWARE AVENUE, SUITE 200
POST OFFICE BOX 32
WILMINGTON. DE 19899-0032
TELEPHONE (302) 655-44 10

Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

United States Department of Homeland Security, et al. v. State of New
York, et a/.. No. 20-449

Dear Mr. Harris:
I represent respondents Make the Road New York, African Services
Committee, Asian American Federation, Catholic Charities Community Services
(Archdiocese of New York), and Catholic Legal Immigration Network, Inc., in this
matter. Pursuant to Supreme Court Rule 30.4,1 hereby request a 30-day extension of
time in which to file a response to the petition for a writ of certiorari in this case. The
petition for a writ of certiorari was docketed on October 8, 2020. The response to the
petition is currently due on November 9, 2020. If extended, the response would be due
on December 9, 2020. I have conferred with counsel for petitioners, who do not oppose
this request. Should you need any additional information, please do not hesitate to let me
know.
Respectfully,

PAUL. WEISS, RIFKIND, WHARTON & GARRISON LLP

2
cc:

Benjamin W. Snyder (counsel for petitioners)
Steven C. Wu (counsel for respondent State of New York)
William Tong (counsel for respondent State of Connecticut)
Thomas J. Donovan, Jr. (counsel for respondent State of Vermont)
James E. Johnson (counsel for respondent City of New York)

